No. 20-366
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL,
APPELLANTS
v.
STATE OF NEW YORK, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPELLANTS’ SUPPLEMENTAL BRIEF, via email and first-class mail, postage
prepaid, this 2nd day of October, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 1094. words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
October 2, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 2, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0366
TRUMP, DONALD J., PRESIDENT OF THE US
STATE OF NEW YORK, ET AL.

DALE E. HO
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 BROAD STREET
NEW YORK, NY 10004
212-549-2693
DALE.HO@ACLU.ORG
BARBARA D. UNDERWOOD
NEW YORK SOLICITOR GENERAL
28 LIBERTY STREET, 23RFD FLOOR
NEW YORK, NY 10005
212-416-6197
BARBARA.UNDERWOOD@AG.NY.GOV

